~ ~
  ~ SERVICES

.....:+' ~
                                         DEPARTMENT OF HEALTH AND HUMAN SERVICES
\ ~
'1"i,"~
                                                                    OFFICE OF AUDIT SERVICES
                                                                   233 NORTH MICHIGAN AVENUE
                                                                     CHICAGO, ILLINOIS 60601
                                                                                                                              V
                                                                                                                         REGION
                                                                                                                             OF
                                                                                                                         OFFICE
                                                                                                                  INSPECTOR GENERAL


                                                                        November 21,2008


        Report Number: A-05-08-00065

        Mr. Cal Ludeman
        Commissioner
        Minnesota Department of Human Services
        P.O. Box 64998
        S1. Paul, Minnesota 55164-0998

        Dear Mr. Ludeman:

        Enclosed is the U.S. Department of                          Health and Human Services (HHS), Offce ofInspector
        General (OIG), final report entitled "Review of Medicaid Credit Balances at Hennepin County
        Medical Center as of                                               this report to the HHS action
                                             March 31,2008." We wil forward a copy of

        official noted on the following page for review and any action deemed necessary.

        The HHS action official will make final determination as to actions taken on all matters reported.
        We request that you respond to this official within 30 days from the date of this letter. Your
        response should present any comments or additional information that you believe may have a
        bearing on the final determination.

        Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
        Public Law 104-231, OIG reports generally are made available to the public to the extent the
        information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
        wil be posted on the Internet at http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate to call me, or
          contact Sheri Fulcher, Audit Manager, at (312) 353-1823 or through e-mail at
          Sheri.Fulcher(ioig.hhs.gov. Please refer to report number A-05-08-00065 in all
          correspondence.

                                                                                   Sincerely,


                                                                                 ~?r~"./
                                                                                     -'
                                                                                   M rc Gu 'rson
                                                                                   Regiona Inspector General
                                                                                        for Audit Services


          Enclosure
Page 2 - Mr. Cal Ludeman


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Ilinois 60601
Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




       REVIEW OF MEDICAID
        CREDIT BALNCES AT
              HENNEPIN COUNTY
               MEDICAL CENTER
      AS OF      MARCH 31, 2008




              ~~~ ~
                \'~ SERVICEs.
                                Daniel R. Levinson
                                 Inspector General

              ( Jít
              "'1-
               -YJ¡
                    ::
                .l/f¡'dJO
                                  November 2008
                                  A-05-08-00065
                             Office of Inspector General
                                                        http:// oig.hhs.gov




The mission of        the Offce ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Offce of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carring out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and effciency throughout HHS.

Office of Evaluation and Inspections

The Offce of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
effciency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Offce of Investigations
The Offce ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of                01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Offce of Counsel to the Inspector General
The Offce of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Minnesota Department of Human Services
(the State agency) is responsible for administering the Minnesota Medical Assistance program
(Medicaid).

Credit balances occur when the reimbursement that a provider receives for services provided to a
Medicaid beneficiary exceeds the charges billed, such as when a provider receives payments for
the same service from the Medicaid program or another third party payer. In such cases, the
provider should return the existing overpayment to the Medicaid program, which is the payer of
last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” require States to adjust any outstanding credit balances within 60 days after
notification by a provider that a credit balance exists. The State agency does not have any
regulations in place requiring providers to refund Medicaid credit balances within a specific time
frame.

Hennepin County Medical Center (HCMC) is a 910-licensed bed hospital located in
Minneapolis, Minnesota. HCMC is described as a safety net hospital providing care to low-
income, uninsured, and vulnerable populations. The State agency reimbursed HCMC over $42
million for Medicaid services during calendar year 2007.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in HCMC’s
accounting records for inpatient and outpatient services represented overpayments that it should
have returned to the Medicaid program.

SUMMARY OF FINDINGS

As of March 31, 2008, HCMC’s Medicaid credit balances included 34 overpayments totaling
$56,389 ($28,195 Federal share) that had not been returned to the Medicaid program. For 18 of
the 34 overpayments, the ages ranged from 63 to 377 days. HCMC agreed that the
overpayments occurred because of billing and payment errors.




                                                i
We verified that HCMC refunded 33 of the 34 overpayments to the State agency as of
September 8, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government the $28,195 paid to HCMC for Medicaid 

      overpayments and 


   •	 work with HCMC to review its procedures to ensure that credit balances are reviewed
      and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our finding and
recommendations. However, the State agency did not fully address the refund of overpayments
to the Federal Government.

We continue to recommend that the State agency refund $28,195 to the Federal Government.

The State agency’s comments are included in their entirety in the Appendix.




                                               ii
                                           TABLE OF CONTENTS 

                                                                                                              Page

INTRODUCTION..................................................................................................1


          BACKGROUND .........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................1 

               Objective ..........................................................................................1       

               Scope………………………………………………………………1                                                                              

               Methodology……………………………………………………… 2                                                                          


FINDING AND RECOMMENDATIONS………………………………….......2


          FEDERAL AND STATE MEDICAID REQUIREMENTS........................3 


          OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING 

           OVERPAYMENTS ..................................................................................3 


          RECOMMENDATIONS……………………………………………….....4                                                                      


          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...............................4 


APPENDIX

          STATE AGENCY COMMENTS




                                                            iii
                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Minnesota Department of Human Services
(the State agency) is responsible for administering the Minnesota Medical Assistance program
(Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives
payments for the same service from the Medicaid program or another third-party payer. In such
cases, the provider should return the existing overpayment to the Medicaid program, which is the
payer of last resort.

Federal regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” require States to adjust any outstanding credit balances within 60 days after
notification by a provider that a credit balance exists. The State agency does not have any
regulations in place requiring providers to refund Medicaid credit balances within a specific time
frame.

Hennepin County Medical Center (HCMC) is a 910-licensed bed hospital located in
Minneapolis, Minnesota. HCMC is described as a safety net hospital providing care to low-
income, uninsured, and vulnerable populations. The State agency reimbursed HCMC over $42
million in Medicaid funding during calendar year 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in HCMC’s
accounting records for inpatient and outpatient services represented overpayments that it should
have returned to the Medicaid program.

Scope

As of March 31, 2008, HCMC’s accounting records contained 300 credit balance accounts
totaling $274,334 with Medicaid listed as a payer. We selected all accounts with credit balances
greater than $100 and reviewed a sample of 106 accounts totaling $268,131. The 106 credit
balance accounts included 37 inpatient accounts totaling $226,851 and 69 outpatient accounts



                                                1

totaling $41,280. We determined that 34 of the 106 accounts included Medicaid overpayments.
Our review of overpayments included 29 outpatient accounts totaling $4,940 and 5 inpatient
accounts totaling $51,449.

We limited our review of internal controls to obtaining an understanding of the policies and
procedures that HCMC used to review credit balances and report overpayments to the Medicaid
program and did not review its entire internal control structure. This understanding was for the
purpose of accomplishing our objective and not to provide assurance of the internal control
structure.

We performed our fieldwork from May through September 2008 at HCMC in Minneapolis,
Minnesota.

Methodology

To accomplish our objective, we:

   •	 researched and reviewed Federal and State requirements pertaining to Medicaid credit
      balances;

   •	 identified and reconciled HCMC’s Medicaid credit balances to its accounting records as
      of March 31, 2008;

   •	 reconciled HCMC’s March 31, 2008 credit balance list to the accounts receivable 

      records, and reconciled the accounts receivable records to the trial balance; 


   •	 selected a sample of credit balance accounts with Medicaid listed as a payer and having
      credit balances greater than $100;

   •	 reviewed patient payment data, Medicaid claim forms and remittance advices, patient
      accounts receivable detail and additional supporting documentation for each of the
      selected credit balance accounts; and

   •	 coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

As of March 31, 2008, HCMC’s Medicaid credit balances included 34 overpayments totaling
$56,389 ($28,195 Federal share) that had not been returned to the Medicaid program. For 18 of



                                                2

the 34 overpayments, the ages of the overpayments ranged from 63 to 377 days. HCMC
acknowledged that the overpayments occurred because of billing and payment errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR 433 Subpart F, “Refunding the Federal Share of Overpayments to
Providers,” States must adjust any outstanding credit balances. The regulation is based on the
statutory requirements contained in the Omnibus Reconciliation Act of 1985 (Public Law 99-
272), section 9512, which requires States to adjust any outstanding credit balances within 60
days after notification by a provider that a credit balance exists.

In accordance with Federal regulations, the State agency must adjust the applicable claim or
recover the amount of the Medicaid overpayment from the provider within 60 days of
notification. Minnesota statute 256B.0641 states the provider must refund the overpayment
amount to the State agency after its identification. The State agency does not have any
regulations in place requiring providers to refund Medicaid credit balances within a specific time
frame.

OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING OVERPAYMENTS

For 34 credit balances, HCMC had not returned Medicaid overpayments totaling $56,389
($28,195 Federal share). As of March 31, 2008, the sample showed Medicaid credit balances
with ages that ranged from 63 to 377 days, as the following tables summarizes.

                                     Ages of Overpayments
                                       # of          Overpayment
                   Days              Accounts          Amount          Federal Share
               1 - 60                    16             $33,813            $16,907
               61 – 90                   5               20,831             10,416
               91 – 180                  9                1,100                550
               181 – 365                 3                  560                280
               366 – 1,000               1                   85                 42
               Total                     34             $56,389            $28,195


HCMC agreed that the overpayments occurred because of the following billing and payment
errors:

   •	 For 12 accounts, the hospital billed for the services, revised the charges and submitted
      another claim;




                                                3

   •	 For 11 accounts, payments were received from Medicaid and another payer for the same
      services;

   •	 For nine accounts, the hospital billed for charges that were cancelled, non-covered,
      doubled, erroneous, or did not exist; and

   •	 For two accounts, miscellaneous billing or payment errors occurred.

We verified that HCMC refunded 33 of the 34 overpayments to the State agency as of September
8, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government the $28,195 paid to HCMC for Medicaid 

      overpayments and 


   •	 work with HCMC to revise its procedures and implement training to ensure that credit
      balances are reviewed and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our finding and
recommendations. However, the State agency did not fully address the refund of overpayments
to the Federal Government.

We continue to recommend that the State agency refund $28,195 to the Federal Government.

The State agency’s comments are included in their entirety as the Appendix.




                                               4

APPENDIX 

APPENDIX
 Page 1 of 3 

APPENDIX
 Page 2 of 3 

APPENDIX
 Page 3 of 3 

